USCA11 Case: 20-12389

Date Filed: 10/16/2020

Page: 1 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-12389-A
COREY DENARD THOMAS,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.
Appeal from the United States District Court
for the Middle District of Florida
ORDER:
Corey Thomas, a Florida prisoner serving a 30-year sentence for trafficking in illegal drugs
and contempt, moves this Court for a certificate of appealability (“COA”) to appeal the district
court’s orders denying as time-barred his 28 U.S.C. § 2254 petition, and denying his
Fed. R. Civ. P. 59(e) motion. He also moves for leave to proceed on appeal in forma pauperis
(“IFP”).

To obtain a COA, a petitioner must make “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). Where the district court denied a § 2254 petition on
procedural grounds, the petitioner must show that reasonable jurists would debate whether: (1) the
motion states a valid claim of the denial of a constitutional right; and (2) the district court was
correct in its procedural ruling. Slack v. McDaniel, 529 U.S. 473, 484 (2000).

USCA11 Case: 20-12389

Date Filed: 10/16/2020

Page: 2 of 2

Here, reasonable jurists would not debate the district court’s procedural ruling, that Mr.
Thomas’s § 2254 petition was untimely. The Florida Fifth District Court of Appeal dismissed his
direct appeal on October 30, 2012, and his judgment became final 90 days later, on January 28,
2013, upon expiration of the period to petition for a writ of certiorari. See Clay v. United States,
537 U.S. 522, 527 (2003). Thus, absent tolling, he had until January 28, 2014, to file this § 2254
petition, which he failed to do, as he was not arrested until June 14, 2014.1 Consequently, his
§ 2254 petition, filed in January 2019, was untimely by nearly five years.
Additionally, Mr. Thomas was not entitled to equitable tolling, as the majority of the
federal limitations period expired while he was a fugitive, such that any delay in his filings
stemmed from his own actions. To the extent that he claimed that defense counsel abandoning
him on appeal affected the timeliness of his petition, counsel appealed despite his absence, and, so
long as he was a fugitive, his appeal was subject to dismissal. See Vasquez v. State, 832 So. 2d
901,901 (Fla. 3d DCA 2002). He also did not argue that he is actually innocent. See McQuiggin
v. Perkins, 569 U.S. 383, 386-87 (2013).
The district court also did not abuse its discretion in denying Mr. Thomas’s 59(e) motion,
as he did not identify an intervening change in controlling law, present newly-discovered evidence,
or show that the court committed clear error or a manifest injustice.

See Arthur v. King,

500 F.3d 1335, 1343 (11th Cir. 2007).
Mr. Thomas’s motion for a COA is DENIED. His IFP motion is DENIED AS MOOT.
/s/ Jill Pryor____________
UNITED STATES CIRCUIT JUDGE

i

Mr. Thomas, who was free on bond at the time, failed to appear on the second day of his
2012 trial, and was a fugitive from the law until his arrest on June 14, 2014.
2

USCA11 Case: 20-12389

Date Filed: 12/17/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-12389-A
COREY DENARD THOMAS,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.
Appeal from the United States District Court
for the Middle District of Florida
Before: JILL PRYOR and BRASHER, Circuit Judges.
BY THE COURT:
Corey Thomas has filed a motion for reconsideration, pursuant to 11th Cir. R. 27-2 and
22-1(c), of this Court’s October 16, 2020, order denying a certificate of appealability. Upon
review, Thomas’s motion for reconsideration is DENIED because he has offered no new evidence
or arguments of merit to warrant relief.

w n

A ppe/vJtxX1

&

?
OR BK

6627

PG

417

Reservedfor Recording

IN THE CIRCUIT COURT OF THE EIGHTEENTH JUDICIAL CIRCUIT,
IN AND FOR BREVARD COUNTY, FLORIDA
STATE OF FLORIDA

Case Number 05-2008-CF-020481-AXXX-XX

vs

OBTS Number(s) 0501179313

COREY DENARD THOMAS

SENTENCE
The Defendant, COREY DENARD THOMAS, herein, and the Court having given the Defendant an opportunity
to be heard and to offer matters in mitigation of sentence, and to show cause why the Defendant should not be sentenced as
provided by law, and no cause being shown
It is the sentence of the Court that
(as to Count I 1
X

The Defendant pay a fine of $500,000 00 pursuant to Section 775 083, Florida Statutes, plus $25,000 00 as the 5%
surcharge required by Section 938 04, Florida Statutes The Defendant pay a surcharge of $20 00 pursuant to
Section 938 06, Florida Statutes for the Crime Stoppers Trust Fund

X

The Defendant is hereby committed to the custody of the Department of Corrections

To be imprisoned (Check one, unmarked sections are inapplicable)
X

For a term of thirty (30) years

A

VV

727

U

«■'

1

ri

OR BK

6627

PG

418

IN THE CIRCUIT COURT OF THE EIGHTEENTH JUDICIAL CIRCUIT,
IN AND FOR BREVARD COUNTY, FLORIDA
STATE OF FLORIDA

Case Number 05-2008-CF-020481-AXXX-XX

vs

OBTS Number(s) 0501179313

COREY DENARD THOMAS

SPECIAL PROVISIONS
By appropriate notation, the following provisions apply to the sentence imposed
(as to Count I 1
Minimum/Mandatorv Provisions
Drug Trafficking

X

It is further ordered that the 25-year minimum mandatory imprisonment provisions of
Section 893 135(1), Florida Statutes, is hereby imposed for the sentence specified in
this count

X

It is further ordered that the defendant be allowed a total of 34 days as credit for time
incarcerated before imposition of this sentence

Other Provisions
Original Jail Credit

728

•' *

' f*

OR BK

6627

P6

419

r

CIRCUIT COURT OF THE EIGHTEENTH JUDICIAL CIRCUIT,
IN AND FOR BREVARD COUNTY, FLORIDA
Case Number 05-2008-CF-020481-AXXX-XX

SI ATE OF FLORIDA
vs
COREY DENARD THOMAS

SIGNATURE PAGE
In the event the above sentence is to the Department of Corrections, the Sheriff of Brevard County, Florida, is hereby
ordered and directed to deliver the Defendant to the Department of Corrections at the facility designated by the department
together with a copy of this judgment and sentence and any other documents specified by Florida Statute
The Defendant was advised in open court of the right to appeal from this sentence by filing a notice of appeal within
thirty (30) days from this date with the clerk of this court and the Defendant’s right to the assistance of counsel in taking the
appeal at the expense of the State on showing of indigency
In imposing the above sentence, the Court further recommends
(Items marked with*(COP) *(COCO and *(COS) are Conditions of Probation Community Control and Condition ofSuspension)

(as to Count 1 )
General
PREVIOUSLY FOUND GUILTY BY THE JURY ON 3-28-12, DEFENDANT WAS NOT PRESENT ON
3-28-12
ATTORNEY CHRISTOPHER BOVE PRESENT
THE COURT HEREBY ORDERS THE DEFENDANT remanded to the Brevard County Detention Center
DONE AND ORDERED at Brevard County, Florida, on June 20,2i

JOH

rRIESBAUM, Circuit Judge

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a copy of the foregoing has been furnished by US Mail / hand delivery to CHRISTOPHER
BOVE, 7165 MURRELL RD STE 101, MELBOURNE, FL 32940-8261 on _ «MX(/-/<><_______________

071'
Deputy Clerk
I acknowledge receipt of a certified copy of this Order, and the coj
immediately report to the Probation and Parole Office for further mstructjpfl?^

Date

16ns have been explained to me

’robat toncr/C omm unity Controllce

INSTRUCTED BY

729

I will

I

OR BK

7160

PG

1250

Reservedfor Recording

IN THE CIRCUIT COURT OF THE EIGHTEENTH JUDICIAL CIRCUIT,
IN AND FOR BREVARD COUNTY, FLORIDA
STATE OF FLORIDA

Case Number 05-2008-CF-020481 -AXXX-XX

vs.
COREY DENARD THOMAS

OBTS Numbers): 0501179313,0501304237

SENTENCE
The Defendant, COREY DENARD THOMAS, having been adjudicated guilty herein, and the Court having given
the Defendant an opportunity to be heard and to offer matters in mitigation of sentence, and to show cause why the Defendant
should not be sentenced as provided by law, and no cause being shown
It is the sentence of the Court that:
(as to Count 2 1
X

The Defendant is hereby committed to the custody of the Sheriff of Brevard County, Florida.

To be imprisoned (Check one; unmarked sections are inapplicable):
X

For a term of twenty-two (22) days.

App^l/ k'
. 733

\

"*

OR BK

7160

PG

1251

IN THE CIRCUIT COURT OF THE EIGHTEENTH JUDICIAL CIRCUIT,
IN AND FOR BREVARD COUNTY, FLORIDA
STATE OF FLORIDA

Case Number: 0S-2008-CF-02048 l-AXXX-XX

vs.

OBTS Numbers): 0501179313,0501304237

COREY DENARD THOMAS

SPECIAL PROVISIONS
By appropriate notation, the following provisions apply to the sentence imposed:
(as to Count J2J
Q(her Provisions;

Original Jail Credit

X

It is further oidered that the defendant be allowed a total of 22 days as credit for time
incarcerated before imposition of this sentence.

734

~

'/

\v
OR' BK

7160

PG

1252

CIRCUIT COURT OF THE EIGHTEENTH JUDICIAL CIRCUIT,
IN AND FOR BREVARD COUNTY, FLORIDA
Case Number: 05-2008-CF-020481 - AXXX -XX

STATE OF FLORIDA
vs.

COREY DENARD THOMAS

SIGNATURE PAGE
In the event the above sentence is to the Department of Corrections, the Sheriff of Brevard County, Florida, is hereby
ordered and directed to deliver the Defendant to the Department of Corrections at the facility designated by the department
together with a copy of this judgment and sentence and any other documents specified by Florida Statute.
The Defendant was advised in open court of the right to appeal from this sentence by filing a notice of appeal within
thirty (30) days from this date with the clerk of this court and the Defendant's right to the assistance of counsel m taking the
appeal at the expense of the State on showing of indigency.
In imposing the above sentence, the Court further recommends:
(Items marked with •(COP), •(COCC). and •(COS) are Conditions of Probation, Community Control, and Condition ofSuspension)
THE COURT HEREBY ORDERS THE DEFENDANT discharged/released.
DONE AND ORDERED at Brevard County, Florida, on June 30,0014. /!
t

JOW« M BRIESBAUM, Circuit Judge

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a copy of the foregoing has been furnished by U.S. Mail / hand delivery. to CHRISTOPHER
BOVE, 7165 MURRELL RD STE 101, MELBOURNE, FL 32940-8261 on_____ ;------ Kg'ZOT IH

Deputy Clerk
I acknowledge receipt of a certified copy of this Order, and the conditions have been explained to me. 1 will
immediately report to the Probation and Parole Office for further instructions.

Date

Probationer/Community Controlli

INSTRUCTED BYT:

735

<■'

*•-

V

Case 6:18-cv-02031-CEM-EJK

Document 35

Filed 04/13/2020

Page 1 of 6 PagelD 904

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION

COREY DENARD THOMAS,
Petitioner,
Case No: 6:18-cv-2031-Orl-41EJK

v.
SECRETARY, DEPARTMENT OF
CORRECTIONS and ATTORNEY
GENERAL, STATE OF FLORIDA,
Respondents.
ORDER

THIS CAUSE is before the Court on the Amended Petition for Writ of Habeas Corpus
(“Amended Petition,” Doc. 6) filed by Petitioner pursuant to 28 U.S.C. § 2254. Petitioner also filed
a supporting Memorandum of Law (Doc. 7). Respondents filed a Corrected Response to Petition
(“Response,” Doc. 21) in compliance with this Court's instructions and with the Rules Governing
Section 2254 Cases in the United States District Courts. Petitioner filed a Reply (Doc. 25) and an
Amended Reply (Doc. 31) to the Response. For the reasons set forth herein, the Amended Petition
will be denied as untimely.
I.

Procedural Background

The State Attorney in and for the Eighteenth Judicial Circuit charged Petitioner by criminal
information in Brevard County, Florida with one count of trafficking in illegal drugs. (Doc. 22-1
at 6). On the second day of trial (March 28, 2012), Petitioner failed to appear, and he failed to
appear for the remainder of the trial. {Id. at 47). The jury found Petitioner guilty, and the trial court
issued a bench warrant for Petitioner’s arrest. {Id. at 52-54). The trial court adjudicated Petitioner

/4pp£/OC>lX /V
Page 1 of 6

* *-u

Case 6:18-cv-02031-CEM-EJK

Document 35

Filed 04/13/2020

Page 2 of 6 PagelD 905

guilty and sentenced him to imprisonment for a term of thirty years.1 (Id. at 59-62). Petitioner filed
a direct appeal, which Florida’s Fifth District Court of Appeal (“Fifth DCA”) dismissed on October
30, 2012, for failure to file a record on appeal. (Id. at 68).
On June 14, 2014, Petitioner was taken into custody on the warrant. (Id. at 70). On August
8, 2014, Petitioner sought to file a belated appeal, which the Fifth DCA denied on October 10,
2014. (Mat 72).
On November 5, 2014, Petitioner filed a petition for writ of habeas corpus, which the Fifth
DCA dismissed as untimely on November 13, 2014. (Id. at 80-88, 113).2 The Fifth DCA denied
Petitioner’s motion for rehearing on December 17, 2014. (Id. at 124).
On October 30, 2014, Petitioner filed a motion for postconviction relief pursuant to Florida
Rule of Criminal Procedure 3.850, raising five claims. (Id. at 126-39). The trial court denied the
motion on November 25, 2014. (Id. at 142-48). Petitioner appealed, and, on April 17, 2015, the
Fifth DCA remanded the case for the trial court to hold an evidentiary hearing on Claims One and
Two. (Id. at 267-69). The mandate issued on May 11,2015. (Id. at 271).
On remand, Petitioner moved to amend his Rule 3.850 motion, and the trial court denied
his request. (Id. at 288-91). On December 22, 2015, the Fifth DCA affirmed the denial per curiam.
(Id. at 320). The mandate issued on February 9, 2016. (Id. at 324).

1 Petitioner also failed to appear for sentencing. (Id. at 56). Petitioner explains that he was
absent from trial because "he was feeling very ill." (Doc. 25 at 8). Fie also states that he never
received notification of the sentencing date and that he did not become aware that he "had been
sentenced in abstentia" until after his arrest on June 14, 2014. (Id).
2 Unless otherwise noted, the pleadings filed by Petitioner after the conclusion of all direct
appeal proceedings were pro se. References to the filing date of those pleadings shall be the filing
date under the mailbox rule. See Adams v. United States, 173 F.3d 1339, 1341 (11th Cir. 1999)
(under the "mailbox rule," a pro se prisoner's motion to vacate, set aside, or correct sentence was
filed on the date that he signed, executed, and delivered his petition to prison authorities for
mailing).
Page 2 of 6

*

*A+*

Case 6:18-cv-02031-CEM-EJK

Document 35

Filed 04/13/2020

Page 3 of 6 PagelD 906

On July 22, 2015, Petitioner again sought a belated direct appeal, which the Fifth DCA
denied on July 28, 2015. {Id. at 326-37). Petitioner’s request for a rehearing was denied on
September 3, 2015. {Id. at 346).
On April 8, 2016, the trial court held an evidentiary hearing on Claims One and Two and
denied the claims on April 22, 2016. {Id. at 445-55). The Fifth DCA affirmed per curiam on April
11,2017. (Doc. 22-2 at 58). The mandate issued on July 18, 2017. {Id. at 70).
On March 13, 2018, Petitioner filed a motion to correct illegal sentence pursuant to Florida
Rule of Criminal Procedure 3.800, which the trial court denied. {Id. at 72-79). The Fifth DCA
affirmed and issued the mandate on November 30, 2018. {Id. at 111).
On November 9, 2018, Petitioner filed a second petition for writ of habeas corpus, which
the Fifth DCA denied on February 25, 2019. {Id. at 113-25, 142).
II.

Legal Standards

Pursuant to 28 U.S.C. § 2244,

(d)(1) A 1-year period of limitation shall apply to an
application for a writ of habeas corpus by a person in custody
pursuant to the judgment of a State court. The limitation period shall
run from the latest ofthe date on which the judgment of conviction became
(A)
final by the conclusion of direct review or the expiration of the time
for seeking such review;
the date on which the impediment to filing an
(B)
application created by State action in violation of the Constitution
or laws of the United States is removed, if the applicant was
prevented from filing such State action;
the date on which the constitutional right asserted
(C)
was initially recognized by the Supreme Court, if the right has been
newly recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or
the date on which the factual predicate of the claim
(D)
or claims presented could have been discovered through the exercise
of due diligence.
Page 3 of 6

-j

Case 6:18-cv-02031-CEM-EJK

Document 35

Filed 04/13/2020

Page 4 of 6 PagelD 907

The time during which a properly filed application
(2)
for State post-conviction or other collateral review with respect to
the pertinent judgment or claim is pending shall not be counted
toward any period of limitation under this subsection.
III.

Analysis

In the present case, the Fifth DCA dismissed Petitioner’s direct appeal on October 30,2012.
As a result, Petitioner had until October 31,2013, absent tolling, to file a federal habeas petition.
The Court is aware that Petitioner filed several other post-conviction motions in the state court;
however, those proceedings did not toll the statute of limitations because the one-year period
expired before Petitioner initiated those actions. See Sibley v. Culliver, 377 F.3d 1196, 1204 (11th
Cir. 2004) (concluding "[a] state court filing after the federal habeas filing deadline does not revive
it"); Webster v. Moore, 199 F.3d 1256, 1259 (11th Cir. 2000) ("A state-court petition . . . that is
filed following the expiration of the limitations period cannot toll that period because there is no
period remaining to be tolled."). Consequently, the Amended Petition was untimely.
Petitioner argues that the one-year period of limitation should not apply because the state
courts failed to “determine whether his failure to appeal had been willful or knowingly made. This
meant that the issues were not ripe for federal review as this critical factual determination had not
yet been made.” (Doc. 25 at 4). Petitioner maintains that “the timeliness of the federal petition is
dependent on equitable tolling which in turn revolves around the question of whether Petitioner
willfully failed to appear for his trial, and sentencing, and as a result, abandoned his appeal.” {Id.
at 7). Petitioner also mentions that the dismissal of his direct appeal was the result of his counsel’s
errors. {Id. at 9-10).
The Supreme Court recognizes that the one-year period of limitation is subject to equitable
tolling in appropriate circumstances. Holland v. Florida, 560 U.S. 631, 645 (2010). However, a
petitioner is entitled to equitable tolling only when it is demonstrated that 1) the petitioner “has
been pursuing his rights diligently,” and 2) “some extraordinary circumstance stood in his way and
Page 4 of 6

}

Case 6:18-cv-02031-CEM-EJK

Document 35

Filed 04/13/2020

Page 5 of 6 PagelD 908
\

prevented timely filing.” Id. at 649 (internal quotations and citations omitted). As to the first prong,
the movant need only demonstrate “reasonable diligence” rather than “maximum feasible
diligence.” Id. at 653 (quotations omitted). As to the second prong, an extraordinary circumstance
is one that is both beyond the movant's control and unavoidable even with diligence. Drew v. Dep't
of Corrs., 297 F.3d 1278, 1286 (11th Cir.2002). Equitable tolling “is an extraordinary remedy
which is typically applied sparingly,” and the movant bears the burden of showing that it is
warranted. Id. (quotation omitted).
In the present case, Petitioner failed to appear on the second day of trial, and he remained
at large until he was taken into custody on June 4, 2014, which was almost eight months after the
one-year period of limitation expired. Clearly, Petitioner did not pursue his rights in any manner
between the time he failed to appear for trial and June 4, 2014, and it was his own actions that
caused his failure to comply with the one-year period of limitation. Certainly, Petitioner has not
shown that he pursued his rights diligently or that some extraordinary circumstance stood in his
way and prevented timely filing. As such, the Court finds that Petitioner has failed to satisfy either
prong set forth in Holland or to otherwise demonstrate that he is entitled to equitable tolling.
In sum* Petitioner has not pointed to any valid statutory ground for extending the deadline
for filing his federal petition, and he has not presented any arguments supporting a claim for
equitable tolling or actual innocence. Further, the record does not reveal any basis for statutory or
equitable tolling. Thus, the Amended Petition is time-barred by the AEDPA's one-year statute of
limitations and is dismissed.
IV.

Certificate of Appealability

This Court should grant an application for a certificate of appealability only if the petitioner
makes “a substantial showing of the denial of a constitutional right.” 28 U.S.C. ' 2253(c)(2). To
make such a showing “[t]he petitioner must demonstrate that reasonable jurists would find the
district court’s assessment of the constitutional claims debatable or wrong.” Slack v. McDaniel,
Page 5 of 6

*•. r* *

Case 6:18-cv-02031-CEM-EJK

Document 35

Filed 04/13/2020

Page 6 of 6 PagelD 909

529 U.S. 473, 484 (2000); see also Lamarca v. Sec’y, Dep’t of Corr., 568 F.3d 929, 934 (11th Cir.
2009). However, the petitioner need not show that the appeal will succeed. Miller-El v. Cockrell,
537 U.S. 322, 337 (2003).
Petitioner fails to demonstrate that reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or wrong. Moreover, Petitioner cannot
demonstrate that jurists of reason would find this Court’s procedural rulings debatable. Petitioner
fails to make a substantial showing of the denial of a constitutional right. Thus, the Court will deny
Petitioner a certificate of appealability.
V.

Conclusion

Therefore, it is ORDERED and ADJUDGED as follows:
1. The Amended Petition for Writ of Habeas Corpus (Doc. 6) is DENIED.
2. This case is DISMISSED with prejudice.
3. The Clerk of the Court is directed to enter judgment in favor of Respondents and to
close this case.
4. Petitioner is DENIED a certificate of appealability in this case.

DONE and ORDERED in Orlando, Florida on April 13, 2020.

r
CARLOS E. MENDOZA 1
UNITED STATES DISTRICT JUD«E

Copies furnished to:
Counsel of Record
Unrepresented Party
Page 6 of 6

